                Voucher Audit of the Treasury Information
                     Processing Support Services
                     Contract – TIRNO-00-D-00015

                                   August 2005

                       Reference Number: 2005-10-124




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                          August 8, 2005

      MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES



      FROM:                  Pamela J. Gardiner
                             Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report – Voucher Audit of the Treasury Information
                             Processing Support Services Contract – TIRNO-00-D-00015
                             (Audit # 200410023)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Treasury Information Processing Support Services Contract – TIRNO-00-D-00015. The
      overall objective of this review was to determine whether selected vouchers submitted
      and paid under contract TIRNO-00-D-00015 were appropriate and in accordance with
      the contract’s terms and conditions.
      Contract expenditures represent a significant outlay of IRS funds. The Treasury
      Inspector General for Tax Administration has made a commitment to perform audits of
      these expenditures. We initiated this audit to determine whether the vouchers
      submitted by the contractor and paid by the IRS were accurate, supported, and
      allowable.
      Our review resulted in the identification of questionable charges of $370,071.16, which
      consisted of unallowable, unsupported, unreasonable, and inaccurate charges and
      related fees.
      As part of this audit, we also examined contract correspondence files and interviewed
      the Contracting Officer and Contracting Officer’s Technical Representatives to
      determine whether there was an acceptable existence of deliverables. Based on these
      limited auditing procedures, nothing came to our attention that would lead us to believe
      there were significant problems with any of the deliverables associated with the task
      orders included in our tests. However, we did identify where deliverables for one task
      order could not be verified because work requests describing the specific services to be
      performed were not prepared. This task order pertained to services provided to the IRS
      Oversight Board and was administered by the Department of the Treasury,
      Departmental Offices. Notwithstanding the lack of detailed work requests, our review of
                                            2

subcontractor status reports and an email provided evidence to support that services
were provided to and accepted by the Oversight Board during the period of our audit.
We recommended the Director, Office of Procurement, ensure the appropriate
Contracting Officer reviews the identified questionable charges of $370,071.16 and
initiates any recovery actions deemed warranted.
Management’s Response: IRS management agreed to conduct an in-depth analysis of
the 15 vouchers examined during this audit as well as all supporting documentation
obtained from the contractor. If the IRS determines that payment has been made on
inappropriate or unsupported charges, the IRS will initiate action to recover costs where
warranted. In its response, IRS management commented that it believes that our
reported condition concerning the Oversight Board services task order is not
appropriate for the report, since its administration was not under its purview, and
disagreed with our assessment concerning the unreasonableness of subcontractor
labor costs. Management’s complete response to the draft report is included as
Appendix V.
Office of Audit Comments: Concerning the Oversight Board task order, an IRS
Contracting Officer signed the task order in question. Therefore, we believe that official
retained some responsibility over the task order even though the contract was
administered by the Department of the Treasury, Departmental Office. Further, the
corrective action offered by the IRS and included in our report is considered an
adequate establishment of internal controls to ensure that this type of condition is
prevented in the future for all similar task orders.
Concerning the unreasonableness of subcontractor labor costs, we agree with the IRS
that, at times, specialized outside labor is necessary at a higher cost than regular
contractor employees and that there is no set requirement that the expertise be
acquired at the same level of contractor employee compensation. However, our
analysis of the 15 vouchers showed that 8 subcontractor specialists were charged on 15
different occasions with excess labor costs of $43,717. We believe this regular use of
subcontractors is beyond specialized use and, therefore, bordering on unreasonable.
Whatever the outcome, the ultimate decision on this matter will be the responsibility of
the Contracting Officer.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have any questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
          Voucher Audit of the Treasury Information Processing Support Services
                               Contract - TIRNO-00-D-00015




                                                  Table of Contents


Background ............................................................................................... Page 1
Questionable Contract Charges and Voucher Verification Process .......... Page 2
         Recommendation 1: .........................................................................Page 5

Deliverables for One Task Order Could Not Be Verified ........................... Page 6
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 8
Appendix II – Major Contributors to This Report ....................................... Page 10
Appendix III – Report Distribution List ....................................................... Page 11
Appendix IV – Outcome Measures.......................................... ……………Page 12
Appendix V – Management’s Response to the Draft Report ..................... Page 13
       Voucher Audit of the Treasury Information Processing Support Services
                            Contract - TIRNO-00-D-00015

                                In June 2000, the Internal Revenue Service (IRS) awarded
Background
                                contract number TIRNO-00-D-00015, an indefinite-
                                delivery, indefinite-quantity contract as part of a series of
                                the Treasury Information Processing Support Services
                                (TIPSS) contracts. The objective of the June 2000 contract
                                was to provide a continuation of the broad range of
                                information technology-related services initiated by the
                                original TIPSS contracts.1 The IRS awarded task orders
                                against the contract on either a cost-plus-fixed-fee or a firm
                                fixed-price basis.
                                The contract was awarded for a 1-year base period through
                                May 31, 2001, with 4 option years that would extend the
                                contract through May 31, 2005. The IRS exercised all the
                                options available under the contract. According to the IRS
                                Request Tracking System,2 as of June 2004, the IRS had
                                awarded 8 task orders, with a total value not to exceed
                                approximately $59 million, and had recorded approximately
                                $6.5 million in transactions against these task orders.
                                Because contract expenditures represent a significant outlay
                                of IRS funds, the Treasury Inspector General for Tax
                                Administration (TIGTA) made a commitment to perform
                                audits of these expenditures. This audit was designed to
                                determine whether amounts paid by the IRS under this
                                contract were accurate, supported, and allowable through a
                                review of contractor vouchers and documentation.
                                This review was performed at the Office of Procurement in
                                the Office of Agency-Wide Shared Services in
                                Oxon Hill, Maryland, during the period June 2004 through
                                May 2005. Opinions expressed in this report pertain only to
                                the task orders and vouchers included in our judgmental
                                sample.
                                The audit was conducted in accordance with Government
                                Auditing Standards. Detailed information on our audit

                                1
                                  The TIPSS contracts provide services to the IRS in the four principal
                                modernization task areas of Information Systems, Telecommunications
                                Support, Organizational/Management, and Operational Support.
                                2
                                  The Request Tracking System allows IRS personnel to prepare,
                                approve, fund, and track requests for the delivery of goods/services.
                                The System also allows for electronic acceptance of items delivered and
                                provides an electronic interface with the Integrated Financial System
                                (the IRS’ administrative financial accounting system) for payment.
                                                                                               Page 1
        Voucher Audit of the Treasury Information Processing Support Services
                             Contract - TIRNO-00-D-00015

                                 objective, scope, and methodology is presented in
                                 Appendix I. Major contributors to the report are listed in
                                 Appendix II.
                                 We examined supporting documentation obtained from the
Questionable Contract Charges
                                 IRS Office of Procurement, as well as documentation
and Voucher Verification
                                 received directly from the contractor, for a sample of
Process
                                 15 vouchers. The vouchers were selected using a
                                 judgmental sampling method (see Appendix I for details).
                                 The sampled vouchers were selected from 69 vouchers
                                 related to 4 task orders with associated transactions of
                                 approximately $4.8 million. The 15 vouchers had
                                 processing dates from October 2001 to June 2004 and
                                 involved approximately $2 million in IRS payments.
                                 The primary expenses claimed by the contractor were
                                 employee compensation, subcontractor fees, indirect costs
                                 (e.g., overhead, and general and administrative expenses),
                                 and to a lesser extent, other direct costs such as travel.
                                 Questionable contract charges
                                 Based on our audit tests, we identified questionable charges
                                 of $370,071.16 (approximately 18 percent of the total
                                 charges reviewed), as shown in Table 1. We provided
                                 details of these charges to the contractor and the IRS.
                                                Table 1: Schedule of Questioned Charges
                                              Questioned Activity              Questioned Charges3
                                     Unallowable Travel                                        $573.03
                                     Unsupported Travel                                    $11,890.81
                                     Unallowable Charges (net)                             $31,454.85
                                     Unsupported Charges                                  $266,186.20
                                     Unreasonable Charges                                  $43,717.07
                                     Inaccurate Charges (net)                              ($1,373.24)
                                     Related Fees                                          $17,622.44
                                     Total                                                $370,071.16
                                 Source: TIGTA analysis of 15 vouchers submitted to the IRS.


                                 3
                                  Questioned charges include associated indirect costs. The reference to
                                 net signifies that both positive and negative amounts were identified.
                                                                                                 Page 2
Voucher Audit of the Treasury Information Processing Support Services
                     Contract - TIRNO-00-D-00015

                         A majority of the unallowable charges related to billed
                         subcontractor services provided outside of the subcontract’s
                         period of performance; not using correct labor rates; and not
                         using Defense Contract Audit Agency approved provisional
                         overhead, and general and administrative rates. A majority
                         of the unsupported charges related to the insufficient
                         provision of subcontractor supporting documentation to
                         substantiate the charges. Finally, a majority of the
                         unreasonable charges related to subcontractor labor costs
                         that were substantially higher than those billed for
                         contractor employees as shown in the contract.
                         The Federal Acquisition Regulation (FAR)4 stipulates a
                         contractor is responsible for accounting for costs
                         appropriately and for maintaining records, including
                         supporting documentation, adequate to demonstrate that
                         costs claimed have been incurred. The FAR also provides
                         that costs shall be allowed to the extent they are reasonable,
                         allocable, and allowable under the FAR.
                         Voucher verification process
                         Contracts may be entered into and signed on behalf of the
                         Federal Government only by Contracting Officers (CO).
                         The COs have the authority to administer or terminate
                         contracts and make related determinations and findings.
                         The COs are responsible for ensuring performance of all
                         necessary actions for effective contracting, ensuring
                         compliance with the terms of the contract, and safeguarding
                         the interests of the United States in its contractual
                         relationships.
                         The requesting program office nominates a Contracting
                         Officer’s Technical Representative (COTR), who is the
                         CO’s technical expert and representative in the
                         administration of a contract or task order. Usually, the CO
                         will appoint the COTR by issuing a signed letter of
                         appointment tailored to meet the needs of each contract.
                         The CO and the COTR are required to jointly review all
                         appointed duties.
                         Prior to April 28, 2004, the Department of the Treasury’s
                         Contracting Officer’s Technical Representative’s Handbook

                         4
                             48 C.F.R. pt 1-53 (2002).
                                                                                 Page 3
Voucher Audit of the Treasury Information Processing Support Services
                     Contract - TIRNO-00-D-00015

                         was the primary guidance for the COTRs.5 Part IV of the
                         Handbook states, in part, that the COTRs are responsible for
                         reviewing and approving invoices and vouchers on
                         contracts. It also states the COTR will receive instructions
                         regarding involvement in the review and approval of
                         invoices and vouchers from the CO. Attachment E of the
                         Handbook also offers, as a sample responsibility, that the
                         COTRs are responsible for reviewing and signing off on the
                         invoices to attest to their accuracy. Thirteen of the
                         15 vouchers we reviewed during this audit were subject to
                         this guidance.
                         Subsequent to April 28, 2004, the IRS replaced the
                         Handbook guidance, in part, with a reference to the Office
                         of Federal Procurement Policy’s A Guide to Best Practices
                         for Contract Administration. The Guide offers, as a
                         practical technique, that COTRs reviewing vouchers under
                         cost reimbursement contracts should review, among other
                         things, contractor time cards to help assess the
                         reasonableness of direct labor costs. The Guide also
                         contains direction to review major cost categories such as
                         subcontractor charges to again determine the reasonableness
                         of the claimed costs.
                         The COTRs we interviewed generally reviewed hours
                         worked and travel expenses for reasonableness. The
                         COTRs were usually, but not always, directly involved in
                         the day-to-day oversight of the work done by the contractor.
                         When not directly involved, the COTRs communicated
                         extensively with program personnel who worked directly
                         with the contractor to verify the hours claimed by the
                         contractor were reasonable. We did not identify any type of
                         consistent verification performed by the COTRs of actual
                         hours worked by direct means, such as a review of
                         contractor-provided employee payroll records or
                         subcontractor records.
                         We believe that our identification of the questioned charges
                         stated above was a direct result of the lack of an adequate


                         5
                           Department of the Treasury Acquisition Circular No. 02-01, dated
                         April 28, 2004, deleted references to the COTR’s Handbook. The
                         Circular also went on to state the Department of the Treasury would no
                         longer maintain the Handbook.
                                                                                        Page 4
Voucher Audit of the Treasury Information Processing Support Services
                     Contract - TIRNO-00-D-00015

                         voucher verification process. Therefore, we continue to
                         believe that our prior audit6 recommendations concerning
                         the institution of a uniform policy to perform a consistent
                         risk-based IRS-wide invoice review, which includes
                         obtaining supporting documentation from the contractor on
                         a sample basis, are still valid.
                         We are not repeating any specific recommendation within
                         this report that addresses this condition. However, we will
                         continue to include a review of the IRS’ voucher
                         verification process in future contract voucher audits and, if
                         warranted, recommend additional improvements to the
                         process.

                         Recommendation

                         1. The Director, Office of Procurement, should ensure the
                            appropriate CO reviews the identified questionable
                            charges of $370,071.16 and initiates any recovery
                            actions deemed warranted.
                         Management’s Response: The IRS will conduct an in-depth
                         analysis of the 15 vouchers examined during this audit as
                         well as all supporting documentation obtained from the
                         contractor. If the IRS determines that payment has been
                         made on inappropriate or unsupported charges, the IRS will
                         initiate action to recover costs where warranted. The IRS
                         disagreed with our assessment concerning the
                         unreasonableness of subcontractor labor costs, stating there
                         are many reasons why a prime contractor subcontracts some
                         of the work, including socio-economic goals or a
                         requirement for specialized labor. The IRS further stated
                         there is no requirement for subcontracted labor to be equal
                         to or less expensive than that of the prime contractor.
                         Office of Audit Comment: We agree with the IRS that, at
                         times, specialized outside labor is necessary at a higher cost
                         than regular contractor employees and that there is no set
                         requirement that the expertise be acquired at the same level
                         of contractor employee compensation. However, our


                         6
                           Improvements Are Needed in the Invoice Review Process for
                         the Business Systems Modernization Contract (Reference
                         Number 2004-10-117, dated June 2004).
                                                                                       Page 5
         Voucher Audit of the Treasury Information Processing Support Services
                              Contract - TIRNO-00-D-00015

                                  analysis of the 15 vouchers showed where 8 subcontractor
                                  specialists were charged on 15 different occasions with
                                  excess labor costs of $43,717. We believe this regular use
                                  of subcontractors is beyond specialized use and, therefore,
                                  bordering on unreasonable. Whatever the outcome, the
                                  ultimate decision on this matter will be the responsibility of
                                  the CO.
                                  We examined contract correspondence files and interviewed
Deliverables for One Task
                                  the COs and COTRs to determine whether there was an
Order Could Not Be Verified
                                  acceptable existence of deliverables for the four task orders
                                  related to our sampled vouchers. The task orders involved
                                  performing nonpersonal information processing support
                                  services in the areas of Information Systems,
                                  Telecommunication Support, and Operational Support.
                                  These services were performed for various IRS projects
                                  such as assisting the:
                                     •   IRS Oversight Board and other oversight entities in
                                         the execution of their responsibilities.
                                     •   Technical Contract Management with the design,
                                         implementation, enhancement, and maintenance on
                                         one or more information management initiatives.
                                     •   Resources Allocation and Measurement organization
                                         and its related division and partners.
                                     •   Strategic Planning and Client Services organization
                                         and its related divisions.
                                  Based on our limited auditing procedures, nothing came to
                                  our attention that would lead us to believe there were
                                  significant problems with any of the deliverables associated
                                  with the task orders included in our tests. However, we did
                                  identify that deliverables for one task order could not be
                                  verified because work requests describing the specific
                                  services to be performed were not prepared.
                                  In assigning work on this task order, established contract
                                  procedures were not followed. The contract states the
                                  applicable Program Office is to develop a work request
                                  stating what is required of the contractor; however, these
                                  were not prepared. The work request is to clarify the
                                  requirements of the Program Office and describe the
                                  deliverables expected upon completion of the work. The
                                                                                          Page 6
Voucher Audit of the Treasury Information Processing Support Services
                     Contract - TIRNO-00-D-00015

                         CO stated the original COTR did not believe work requests
                         were needed, and because of limited staffing, the CO did not
                         normally review the COTRs’ duties in this area.
                         After our preliminary discussions with the CO, we
                         subsequently determined that this task order pertained to
                         services provided to the IRS Oversight Board (hereinafter
                         referred to as the Board) and was administered by the
                         Department of the Treasury, Departmental Offices.
                         Contractor vouchers were received and paid by the
                         Departmental Offices, which in turn received
                         reimbursement from the IRS.
                         We did receive some evidence from the CO that services
                         were provided and accepted by the Board. This evidence
                         was comprised of subcontractor status reports and one email
                         noting an invoice received was approved for payment.
                         Notwithstanding the lack of detailed work requests to
                         describe the specific deliverables expected upon completion
                         of the work as required by the task order, this evidence did
                         provide assurance that services were provided to and
                         accepted by the Board during the period of our audit.
                         The CO informed us that beginning in April 2005, the
                         Office of Procurement is undergoing a major reorganization.
                         One of the changes is to implement a new TIPSS Section
                         for Analysis Support. This section will incorporate a new
                         area concerning quality control.
                         As of June 2004, $39,257 was expended on this task order.
                         Although the amount is relatively low compared to what has
                         been paid to the contractor, the preparation of work requests
                         is essential to ensure only needed services are requested
                         and, upon completion, the contractor is only paid for
                         services delivered.
                         We believe the IRS Office of Procurement reorganization
                         underway and the CO’s steps to address our concerns are
                         positive actions in correcting the process weaknesses
                         mentioned above. We also believe the Director of
                         Procurement needs to ensure that, through the establishment
                         of the Section, sufficient controls are implemented to
                         address the quality of work requests associated with the
                         TIPSS contract.


                                                                               Page 7
  Voucher Audit of the Treasury Information Processing Support Services
                       Contract - TIRNO-00-D-00015

                                                                                   Appendix I


                     Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether selected vouchers submitted and
paid under contract number TIRNO-00-D-00015 were appropriate and in accordance with the
contract’s terms and conditions. Specifically, we:
I. Analyzed the Internal Revenue Service’s (IRS) voucher verification process prior to
   certifying payment to the contractor.
   A. Reviewed IRS policies and procedures to gain an understanding of the voucher
      verification process.
   B. Interviewed procurement and project personnel to confirm our understanding of the
      voucher verification process, including:

       1. How labor hours and labor category rates are verified.
       2. How travel costs are verified.
       3. How hours are projected and documented per task order.
       4. How questioned, unsupported, and unallowable charges are treated.
II. Verified whether voucher charges submitted by the contractor and paid by the IRS were
    accurate, supported, and allowable.
   A. We selected a judgmental sample from all task orders and vouchers processed as of
      June 2004. From inception of the contract (June 2000) to our selection date, 8 task orders
      were issued that involved approximately $6.5 million in processed transactions. We
      selected the 4 highest dollar value task orders, which totaled approximately $5.1 million
      in processed transactions, from the 8 task orders. Next, we eliminated transactions
      processed prior to October 2001, which left us with a total of $4.8 million in processed
      transactions. We did this to ensure supporting documentation would be readily available.
      It also afforded us the opportunity to identify current cost-reimbursable internal control
      problems and the ability to discuss adverse conditions with IRS employees and managers
      who would be knowledgeable of the current voucher verification process. From this
      population of $4.8 million, we judgmentally selected (based on the overall total of the
      voucher, and the extent of travel expenses and other direct charges claimed) 15 vouchers
      from the 69 vouchers that related to the 4 task orders. Our final judgmental sample of
      15 vouchers totaled approximately $2 million. We believed this sampling method would
      provide sufficient evidence with which to accomplish our audit objective and would
      result in acceptable management corrective action without the need for a precise
      projection of sample results.
                                                                                         Page 8
  Voucher Audit of the Treasury Information Processing Support Services
                       Contract - TIRNO-00-D-00015

   B. Obtained supporting documentation for the vouchers in the sample from the IRS and
      contractor and performed the following tests:
       1. Verified the mathematical accuracy of the voucher and supporting documentation.
       2. Traced voucher charges to supporting documentation.
       3. Verified whether voucher charges were actually paid by the contractor through
          examination of payroll records and extracts from the contractor’s financial records.
       4. Verified whether voucher charges were allowable under the terms and conditions of
          the contract.
III. Verified whether there was acceptable existence of deliverables, as stipulated in the contract,
     for the four task orders related to our sampled transactions through interviews and reviews of
     project files.




                                                                                            Page 9
  Voucher Audit of the Treasury Information Processing Support Services
                       Contract - TIRNO-00-D-00015

                                                                               Appendix II



                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Chinita Coates, Lead Auditor
Melvin Lindsey, Auditor
Rashme Sawhney, Auditor




                                                                                      Page 10
  Voucher Audit of the Treasury Information Processing Support Services
                       Contract - TIRNO-00-D-00015

                                                                          Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P




                                                                               Page 11
  Voucher Audit of the Treasury Information Processing Support Services
                       Contract - TIRNO-00-D-00015

                                                                                  Appendix IV


                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
   •   Questioned Costs – Potential; $370,071.16 (see page 2).
Methodology Used to Measure the Reported Benefit:
We examined vouchers and supporting documentation obtained from the Internal Revenue
Service’s (IRS) Office of Procurement, as well as documentation received directly from the
contractor, to verify charges for a sample of 15 vouchers. We selected our judgmental sample
from a total population of approximately $4.8 million in transactions processed by the IRS. The
15 vouchers had processing dates from October 2001 to June 2004 and involved approximately
$2 million in IRS payments.
Our review resulted in the identification of questionable charges of $370,071.16. Specifically,
we identified $573.03 in unallowable travel, $11,890.81 in unsupported travel, $31,454.85 (net)
in unallowable charges, $266,186.20 in unsupported charges, $43,717.07 in unreasonable
charges, ($1,373.24) (net) in inaccurate charges, and $17,622.44 in related fees.




                                                                                         Page 12
Voucher Audit of the Treasury Information Processing Support Services
                     Contract - TIRNO-00-D-00015

                                                                        Appendix V


                    Management’s Response to the Draft
                                 Report




                                                                            Page 13
Voucher Audit of the Treasury Information Processing Support Services
                     Contract - TIRNO-00-D-00015




                                                                        Page 14
Voucher Audit of the Treasury Information Processing Support Services
                     Contract - TIRNO-00-D-00015




                                                                        Page 15
